March 29, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:     Audit Report – Vehicle Management – Unsecured Trailers – San
             Francisco Processing and Distribution Center
             (Report Number NL-AR-08-004)

This report presents the results of our audit concerning security deficiencies associated
with U.S. Postal Service owned and leased trailers routinely stored on an unsecured lot
near the San Francisco Processing and Distribution Center (P&DC) (Project Number
08XG019NL000). The Postal Service leased the lot from the San Francisco Port
Commission in October 2001. We initially observed these deficiencies in May 2007
during other audit work and immediately reported them to management and the Postal
Inspection Service. We initiated this review as a follow-up to our previous notifications
and because of continuing deficiencies we observed on January 9, 2008. The audit
addresses various strategic, operational, and financial risks. Refer to Appendix A for
additional information about this audit.

Conclusion

The San Francisco P&DC is leasing an unsecured parking lot near the facility and
improperly storing Postal Service owned and leased trailers and mail transport
equipment in the lot, thereby placing these assets at an increased risk of loss.

Unsecured Trailers

The San Francisco P&DC improperly stores Postal Service owned and leased trailers
on the unsecured lot. The lot has no fences, surveillance cameras, security guards, or
other security measures and is open to high-traffic industrial activity along the
waterfront, the public parklands along San Francisco Bay, and San Francisco city
streets and public thoroughfares.

During our January 9, 2008, inspection, we observed 54 trailers stored on the lot. Many
trailers were vandalized with graffiti or otherwise damaged, most trailers were unlocked,
and San Francisco P&DC managers were improperly using the trailers to store pallets,
mailbags, hampers, or other equipment. We estimated the unsecured trailers and
equipment were worth approximately $1.6 million. Our discussions with Postal Service
Vehicle Management – Unsecured Trailers – San Francisco                      NL-AR-08-004
  Processing and Distribution Center


employees indicated transient or homeless people were using the lot, sleeping in Postal
Service trailers, and using Postal Service equipment to improve their encampments.
The conditions existed because officials did not fully consider or implement policies
governing Postal Service image, trailer usage, protection of public resources, or safety
and security.

We concluded the unsecured conditions diminished the Postal Service’s image,
reputation and brand; presented a danger to public safety and security; subjected Postal
Service vehicles and equipment worth approximately $1.6 million to theft; and exposed
the Postal Service to unrecoverable financial loss. Refer to Appendix B for our detailed
analysis of this issue.

We recommend the Vice President, Pacific Area Operations:

   1. Take immediate action to secure Postal Service property and equipment stored
      on the unsecured lot near the San Francisco Processing and Distribution Center
      and have damaged or defaced trailers repaired or removed from operation.

Management’s Comments

Management agreed with our recommendation and acknowledged that officials in all
plant and delivery operations should secure and protect Postal Service owned property
from vandalism and unauthorized use. Management stated:

   •   They were considering elimination of the unsecured lot to store equipment.

   •   Alternatively, they were considering constructing a security fence, and the
       San Francisco Port Authority had already authorized them to install such a fence.

   •   They would repair non-roadworthy trailers or remove them from the fleet in
       accordance with Postal Service policy.

   •   During the last week of February 2008, they had implemented a twice-daily lot
       inventory to ensure that trailers were locked and there was no vandalism,
       camping, or squatting.

   •   They would report any security issue to the Postal Police.

   •   The Postal Police were patrolling the lot 2 to 3 times a day.

Management disagreed that the estimated value of the unsecured trailers and
equipment was $1.6 million but did not specify their own estimate. Management’s
comments, in their entirety, are included in Appendix C.




                                                  2
Vehicle Management – Unsecured Trailers – San Francisco                    NL-AR-08-004
  Processing and Distribution Center


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to our recommendation, and the corrective actions should resolve
the issues identified in our report.

We acknowledge management’s disagreement with the estimated $1.6 million value of
the trailers and equipment improperly stored on the unsecured lot. Given the absence
of reliable inventory records, the OIG used judgment in estimating the value of this
equipment. This estimated value was included in the report to point out the potential
dollar impact of the assets at risk.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joe Oliva, Director,
Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan M. Brownell
    Anthony M. Pajunas
    Dwight Young
    Winifred G. Groux
    Diana J. Torpey
    Lynn A. Forness
    Katherine S. Banks




                                                  3
Vehicle Management – Unsecured Trailers – San Francisco                                        NL-AR-08-004
  Processing and Distribution Center


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service trailer fleet includes trailers the Postal Service both owns and
leases. Leased trailers include trailers the Postal Service acquires under the “National
Trailer Lease” with Transportation International Pool (TIP), Inc., a wholly-owned trailer
and equipment-leasing subsidiary of General Electric. The leased trailer fleet also
includes other trailers the Postal Service dedicates exclusively to the distribution of mail
transport equipment (MTE).

In October 2001, the Postal Service signed a lease with the San Francisco Port
Commission for an unsecured parking lot near the San Francisco P&DC. P&DC
officials explained they needed the lot to store trailers.




            An MTE trailer and other trailers stored at the unsecured lot near the San Francisco
                                          P&DC on January 9, 2008.

On May 17, 2007, during our audit of the National Trailer Lease, we observed 45 trailers
stored at the unsecured facility. Some trailers were defaced with graffiti, some had
other damage, and most were unlocked. In many cases, the unlocked trailers were
loaded with mailbags, hampers, pallets, over-the-road containers, and other MTE.




                                                     4
Vehicle Management – Unsecured Trailers – San Francisco                               NL-AR-08-004
  Processing and Distribution Center


Postal Service policy requires officials, managers, and employees to properly secure
Postal Service vehicles and equipment. Consequently, we immediately notified
San Francisco P&DC officials of our observations. We subsequently spoke with P&DC
employees who explained transient or homeless people frequented the unsecured lot
and were sleeping in the unlocked trailers.

On June 7, 2007, we filed a “Security Deficiency Referral” with the U.S. Postal
Inspection Service, San Francisco Division, and followed up with San Francisco P&DC
officials. On June 18, 2007, we notified Postal Service Pacific Area officials and on
June 20, 2007, we notified Postal Service San Francisco District officials. We
recommended that officials correct the unsecured conditions, return unneeded trailers to
the leasing contractor, and repair or dispose of damaged Postal Service owned trailers.
San Francisco P&DC officials said they would consider installing a perimeter fence,
consider other permanent security solutions, lock all trailers, and inventory trailers
parked at the lot every day.




                     A severely damaged Postal Service owned trailer, stored at the
                                   unsecured lot on May 17, 2007.

Throughout the summer and fall of 2007, we continued to monitor and observe
conditions at the unsecured lot; follow up with area, district, and P&DC officials; and
follow up with the Postal Inspection Service. For example, on August 6, 2007, we
followed up with the Postal Inspection Service; on August 7, 2007, we revisited the



                                                   5
Vehicle Management – Unsecured Trailers – San Francisco                                      NL-AR-08-004
  Processing and Distribution Center


unsecured lot to observe conditions; and on October 17, 2007, we conducted additional
observations. As a result of our follow-up observations, we noted that P&DC officials
had removed MTE, locked open trailers, and reduced the number of trailers stored on
the lot. However, other security concerns continued to exist. For example, we noted
both Postal Service owned trailers and National Trailer Lease equipment had been
vandalized with graffiti, and we noted evidence that transient or homeless people were




            A Postal Service owned trailer, covered with graffiti, on the San Francisco P&DC’s
                                 unsecured storage lot August 7, 2007.

living on the Postal Service leased property. On December 19, 2007, and again on
December 30, 2007, we followed up with the Postal Inspection Service to discuss our
continuing observations.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to identify continuing unsecure conditions associated
with Postal Service owned or leased trailers stored on the unsecured lot near the
San Francisco P&DC.

We initially made these observations during our audit of the National Trailer Lease
Renewal – Pacific Area (Report Number- NL-AR-07-009, dated September 28, 2007),
and our ongoing audit, Postal Vehicle Service (PVS) Transportation Routes – San




                                                    6
Vehicle Management – Unsecured Trailers – San Francisco                                           NL-AR-08-004
  Processing and Distribution Center


Francisco Processing and Distribution Center (Project 07XG039NL000). For additional
information on previous reports, see the Prior Audit Coverage section of this report.

During our work, we interviewed Postal Service officials from the Pacific Area, the
San Francisco District, the San Francisco P&DC, and the Postal Inspection Service.
We interviewed P&DC managers, supervisors, and employees. We observed and
photographed conditions at the unsecured lot, inspected trailers, and examined the
lease between the Postal Service and the San Francisco Port Commission. We
examined relevant Postal Service policies and procedures, including the Postal
Operations Manual, dated July 2002, with revisions through April 2007; the Postal
Service fleet management policy, dated March 1991; and a Memorandum of Policy from
the Postal Service Senior Vice President, Operations, dated October 1, 2001. We also
relied on our past vehicle fleet management work, particularly that work associated with
fleet safety and security.




             Vandals defaced this leased TIP trailer with graffiti. The Postal Service will incur
         unanticipated costs to repair the trailer before it can be returned to the leasing contractor.
                         Photograph taken at the unsecured lot October 17, 2007.

We examined Postal Service computer-generated data and other records. We did not
audit or comprehensively validate the data. However, we applied alternate audit
procedures such as examining source documents, observation, physical inspection, and




                                                       7
Vehicle Management – Unsecured Trailers – San Francisco                                         NL-AR-08-004
  Processing and Distribution Center


discussions with appropriate officials. We also discussed our observations and
conclusions with senior management officials throughout our work, considered their
perspective, and included their comments where appropriate.

We conducted work associated with this performance audit report from May 2007
through March 2008 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform audit work to obtain




           Here is another view of the unsecured lot located adjacent to industrial activities and
                 parklands along the San Francisco Bay. Photograph taken May 17, 2007.

sufficient, appropriate evidence to provide a reasonable basis for our finding and
conclusion based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our finding and conclusion based on our audit objective. We
discussed our observations and conclusion with management officials on January 16,
2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

Our report, Vehicle Storage – Robert F. Kennedy Stadium, Washington, D.C., identified
approximately 200 Postal Service vehicles stored at an unsecured Robert F. Kennedy
Stadium parking lot in Washington, D.C. This report identified safety and security




                                                     8
Vehicle Management – Unsecured Trailers – San Francisco                                NL-AR-08-004
  Processing and Distribution Center


concerns, evidence of vandalism and theft, and insufficient measures to prevent oil from
leaking onto the asphalt surface.

Collectively, our reports on the National Trailer Lease identified missing trailers and
other security concerns.

Management agreed with all of our prior audit recommendations. For additional
information about these reports, see the table below.

                    Report                        Report          Final Report      Monetary Impact
                     Title                        Number              Date            (in millions)

Vehicle Storage – Robert F. Kennedy Stadium,
Washington, D.C.                                NL-MA-04-001    January 13, 2004     Not applicable

Vehicle Management – National Trailer Lease
Requirements – Capital Metro Area               NL-AR-06-013   September 29, 2006        $1.9

Vehicle Management – National Trailer Lease
Renewal – Southwest Area                        NL-AR-07-005     June 15, 2007           $4.7

Vehicle Management – National Trailer Lease
Renewal – Pacific Area                          NL-AR-07-009   September 28, 2007        $7.5




                                                  9
Vehicle Management – Unsecured Trailers – San Francisco                                    NL-AR-08-004
  Processing and Distribution Center


                            APPENDIX B: DETAILED ANALYSIS

Unsecured Trailers

On January 9, 2008, we inspected the leased parking lot near the San Francisco P&DC,
and observed 54 Postal Service owned or leased trailers that San Francisco P&DC
managers had stored there. The lot was unsecured, many trailers were vandalized with
graffiti or otherwise damaged, most trailers were unlocked, and San Francisco P&DC




            This unlocked trailer was used to store Postal Service equipment. Security is an
           ongoing concern. This is the same graffiti covered TIP trailer shown on page 6. We
                took that photograph October 17, 2007, and this one on January 9, 2008.

managers had improperly used the trailers to store Postal Service equipment. We
estimated the unsecured trailers and equipment were worth approximately $1.6 million.
We concluded the conditions reflected poorly on the Postal Service’s brand or public
image and presented a danger to public safety and security. The conditions existed
because officials did not fully consider or implement policy governing Postal Service
image, trailer usage, protection of public resources, or safety and security. For
example:

   •   Image – Postal Service policy does not specifically address graffiti; however, it
       explains the Postal Service brand is the essence of customer perception, fleet
       appearance is an important part of a positive public image, and the Postal
       Service image is undermined when vehicles do not look professional,
       uncluttered, and clean.




                                                  10
Vehicle Management – Unsecured Trailers – San Francisco                                          NL-AR-08-004
  Processing and Distribution Center


   •   Trailer Usage – Postal Service equipment storage policy explains that the
       practice of storing MTE in roadworthy trailers is excessive and costly. The policy
       also specifies that any trailer storage requirement be analyzed and validated and
       that it is Postal Service policy to fill storage requirements with non-roadworthy
       trailers at lower rates.

   •   Protecting Resources – Postal Service vehicle policy requires that when vehicles
       are not in use, they must be locked and secured at all times; that plant managers
       must inventory and account for all vehicles every day; and that plant managers
       must report incidences of theft or vandalism. Federal standards also stipulate
       that managers must protect assets and other resources from unauthorized use.

   •   Public Safety and Security – Postal Service vehicle policy explains that the
       Postal Service fleet is a recognized presence in cities and communities
       nationwide and enjoys high public trust; warns that criminal elements may use
       Postal Service vehicles to take advantage of the high public trust; and stipulates
       that, in light of recent terrorist activity, there are no exceptions to vehicle security
       requirements.

Our January 9, 2008, inspection of the parking lot identified an area open to high-traffic
industrial activity along the waterfront, including an active maritime operation, a waste
recycling facility, and an electric power plant. The area is also open to public parklands
along San Francisco Bay and has free access from San Francisco city streets and




            A non-Postal Service tractor-trailer and tractor without a trailer passing through the
                                      unsecured lot on May 17, 2007.

public thoroughfares. Because of the industrial activity, traffic patterns routinely
included tractor-trailers, tractors without trailers, and other commercial vehicles not
engaged in Postal Service operations. As a result of this commercial traffic pattern, we
concluded that it would not raise suspicion to see a commercial tractor hooking up to a




                                                     11
Vehicle Management – Unsecured Trailers – San Francisco                                        NL-AR-08-004
  Processing and Distribution Center


Postal Service owned or leased trailer and hauling it away and that criminal elements
could easily steal an unsecured trailer and Postal Service equipment.

Our discussions with Postal Service employees and managers also identified concerns
about unauthorized use of Postal Service property, with transient or homeless people
sleeping in the parking lot, seeking protection from the elements inside the open trailers,
and using Postal Service pallets, mailbags, hampers, or other equipment to improve
their encampments. In addition, on August 7, 2007, we observed what appeared to be
a family setting up their camper on the unsecured lot. Postal Service employees
expressed concern that if someone were injured on or by Postal Service property there
could be legal action and unrecoverable financial loss.




         A family setting up camp on the Postal Service leased lot, potentially to take advantage of
                        adjacent parklands along San Francisco Bay. August 7, 2007.

During our January 9, 2008, inspection, we also observed both Postal Service owned
and leased trailers defaced with graffiti. In addition to reflecting poorly on the Postal
Service, the vandalized trailers required repair. Provisions associated with the Postal
Service National Trailer Lease require that the Postal Service repair any damage to
leased trailers before returning them to TIP. The Postal Service would incur similar
unnecessary costs repairing Postal Service owned trailers.

Despite open commercial and public access to the leased parking lot and obvious
damage to the trailers and equipment stored there, we observed no security measures
in place. For example, there were no fences, surveillance cameras, or security guards.
As previously noted, on June 19, 2007, San Francisco P&DC managers advised us that
they were considering a security fence, but as of our January 9, 2008, inspection, they
had not installed a security fence and had no plans to do so. On May 17, 2007, P&DC



                                                     12
Vehicle Management – Unsecured Trailers – San Francisco                                     NL-AR-08-004
  Processing and Distribution Center


managers also explained that the Postal Police periodically patrolled the lot, but our
inquiries to the Postal Police and the Postal Inspection Service identified no reported
incidents of graffiti, trespassing, vandalism, or other security deficiencies.

On January 16, 2008, we advised the Vice President, Pacific Area Operations, of our
observations and explained we would follow up with a written audit report. The Vice
President explained he would take immediate action to address the problem by
contacting appropriate officials.




      MTE stored in an unlocked trailer places Postal Service equipment at risk of theft, damage, and
     unauthorized use because it provides material for transient people to improve their encampments.
                        Photograph taken at the unsecured lot on January 9, 2008.

On February 11, 2008, officials from the San Francisco P&DC contacted us. The officials
acknowledged they had not followed their security procedures or reported incidences of
vandalism or unauthorized use. However, they stipulated that they had reinstated daily
trailer inventory, would lock trailers that were unlocked, and would report future
incidences of vandalism or unauthorized access to both the Postal Police and Postal
Inspection Service. The officials also explained they had contacted the San Francisco
Port Commission on January 25, 2008, about installing a security fence, and that
indications were the Port Commission would authorize the Postal Service to install such a
fence. Finally, the officials explained that they repainted graffiti-vandalized trailers at the
San Francisco Vehicle Maintenance Facility and tracked those repair costs as a separate
item.




                                                   13
Vehicle Management – Unsecured Trailers – San Francisco   NL-AR-08-004
  Processing and Distribution Center


                       APPENDIX C MANAGEMENT’S COMMENTS




                                                 14
Vehicle Management – Unsecured Trailers – San Francisco   NL-AR-08-004
  Processing and Distribution Center




                                                 15
